CERTIFICATE OF COMPLIANCE
Case No. 19-897
Caption: Pham v. Chavez, et al.
As required by Supreme Court Rule 33.l(h),
I certify that the document contains 5,314 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 10, 2020

~
Record Press, Inc.

Sworn to before me on
November 10, 2020
ALESSANDRA KANE
Notary Public, State of New York
No. 01KA6340521
Qualified in Richmond County

~
Notary Public

